                                                          NATIONAL SCIENCE FOUNDATION
                                                           OFFICE OF INSPECTOR GENERAL
                                                             OFFICE OF INVESTIGATIONS

                                                 CLOSEOUT MEMORANDUM

      Case Number: I08060043
                                                                                   1          Page 1 of 1



                   NSF OIG received an allegation that a subject' falsely committed his home institution's2
            resource without its knowledge in three awarded proposals3 which named the Subject as PI or
            Co-PI and which an institution4 other than his home institution submitted.

                   We examined the three awarded proposals and independently investigated the
            circumstances surrounding their submission. We determined there was no impact on NSF in this
            case. Nonetheless, to prevent future incident, we will send the Subject a Questionable
            Administrative Practice (QAP) Letter explaining NSF expectations that all PIS and Co-PIS be
            knowledgeable and compliant with their home institutions' policies.

                    We could identify no other material issues with the awards and the statements contained
            therein.

                      Accordingly, this case is closed.




11'
  NSF OIG Form 2 (1 1102)
